GR-40-98-020
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Justice Programs 
Grant for the Jefferson County, Kentucky, 
Drug Court Improvement and Enhancement Initiative
Grant No. 95-DC-MX-0054
 
GR-40-98-020
September 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of grant
number 95-DC-MX-0054, awarded by the U.S. Department of Justice (DOJ), Office of Justice
Programs (OJP), to the Jefferson County, Kentucky, Fiscal Court (Jefferson County). The
OJP awarded Jefferson County $204,211 to expand and enhance the existing Jefferson County
Drug Court and Diversion Project. The purpose of the expansion was to alleviate cocaine
addiction among the felony offender population and to utilize the criminal justice system
as a gateway to treatment.
The original grant period was September 15, 1995, through March 31, 1997.  
However, the OJP approved three requests to extend the grant period, which now ends on
August 31, 1998. The purpose of the grant is to upgrade the services to offenders to
increase the likelihood of successful participant rehabilitation, thereby reducing further
criminal activity and reliance on the state correctional system or local jails.
In brief, Jefferson County did not submit semiannual Progress Reports and accurate and
timely Financial Status Reports (FSRs) to the OJP. Also, Jefferson County did not report
program income on the FSRs.
This item is discussed in detail in the Findings and Recommendations section of the
report. Our Scope and Methodology appear in the Appendix.
#####